<html>
<title> - NOMINATION OF RAFAEL BORRAS</title>
<body><pre>[Senate Hearing 112-243]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 112-243

                      NOMINATION OF RAFAEL BORRAS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE



                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

NOMINATION OF RAFAEL BORRAS TO BE UNDER SECRETARY FOR MANAGEMENT, U.S. 
                    DEPARTMENT OF HOMELAND SECURITY

                             APRIL 6, 2011

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
67-125 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  ROB PORTMAN, Ohio
MARK BEGICH, Alaska                  RAND PAUL, Kentucky

                  Michael L. Alexander, Staff Director
  Christian J. Beckner, Associate Staff Director for Homeland Security
                       Prevention and Protection
               Kristine V. Lam, Professional Staff Member
               Nicholas A. Rossi, Minority Staff Director
           Robert L. Strayer, Minority Deputy Staff Director
                   Jennifer L. Tarr, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk











                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     3
    Senator Akaka................................................     4
    Senator Johnson..............................................    13
    Senator Carper...............................................    23
Prepared statements:
    Senator Lieberman............................................    29
    Senator Collins..............................................    31
    Senator Akaka................................................    33

                                WITNESS
                        Wednesday, April 6, 2011

Rafael Borras to be Under Secretary for Management, U.S. 
  Department of Homeland Security:
    Testimony....................................................     5
    Prepared statement...........................................    34
    Biographical and financial information.......................    37
    Letter from the Office of Government Ethics with an 
      attachment.................................................    48
    Responses to pre-hearing questions...........................    50
    Letter from Mark Sullivan submitted by Senator Lieberman.....   105
    Letter from Hon. Richard Skinner submitted by Senator 
      Lieberman..................................................   106
    Responses to post-hearing questions for the Record...........   107

 
                      NOMINATION OF RAFAEL BORRAS

                              ----------                              


                        WEDNESDAY, APRIL 6, 2011

                                     U.S. Senate,  
                       Committee on Homeland Security and  
                                      Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, presiding.
    Present: Senators Lieberman, Akaka, Carper, Collins, and 
Johnson.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning. The hearing will come to 
order.
    Today, the Committee considers the nomination of Rafael 
Borras to serve as Under Secretary for Management at the 
Department of Homeland Security (DHS).
    Mr. Borras, I think, brings a lot of energy and experience 
to what is an unglamorous but vitally important job. I say 
``brings'' as opposed to ``would bring'' because, as I will 
explain in a minute, he has been filling this position for a 
period of time. Everything that the Department does that the 
public sees depends in some critical way on what might be 
called the back-room functions that are the purview of the 
Under Secretary for Management: Acquisition of private sector 
goods and services; hiring and encouraging the best in human 
capital; developing and running information technology (IT) 
systems; and responsible financial management of the public's 
dollars. These are among the very important responsibilities of 
this position.
    In a Department that was created only 8 years ago, and a 
very big Department at that, the Under Secretary for Management 
serves as a linchpin to bring together the disparate processes 
and procedures of what were once 22 separate agencies. I 
believe that Mr. Borras' 27 years of experience in the public 
and private sectors and, now I can say, excellent work during 
the past year on the job qualify him for the position for which 
he has been nominated.
    In government, Mr. Borras has held several senior 
management positions, including Assistant Secretary for 
Administration at the Commerce Department and Regional 
Administrator for the General Services Administration, with 
responsibilities that were quite similar to those he has been 
asked to undertake as Under Secretary for Management and, I 
think, prepared him for the kinds of challenges he has faced at 
DHS.
    Earlier in his career, he held a position near and dear to 
my heart. He was Deputy City Manager of Hartford, obviously, 
the capital city of my home State of Connecticut, and in that 
position, as a matter of record, he helped balance the city's 
budget without raising taxes, which was no small feat during 
the recession of the early 1990s and, I might say on a more 
subjective basis, left a lot of people in Hartford with very 
good feelings and memories of his service there.
    Mr. Borras also spent 10 years as Vice President at URS 
Corporation, a global engineering, construction, and technical 
services firm, which provides services to both the public and 
private sectors.
    When Mr. Borras was first nominated to be Under Secretary 
for Management at DHS in July 2009, I concluded that he was 
qualified for the position and supported his nomination, which 
was reported out of this Committee by a 7-to-3 vote. 
Unfortunately, others had doubts, and following the Committee's 
vote in October 2009, a hold was placed on this nomination so a 
vote in the full Senate could not be scheduled.
    President Obama felt it was important enough to fill this 
position and was confident enough about Mr. Borras' 
qualifications that he put him on the job through a recess 
appointment on March 27, 2010.
    Now, the nominee returns to the Committee with a year of 
experience as the Under Secretary, and to make a long story 
short, I believe that Rafael Borras has proven himself to be a 
dedicated and very capable leader in a challenging position. In 
other words, he has earned Senate confirmation.
    It is worth noting that Mr. Borras has also received 
support from senior leaders within the Department with whom he 
has been working over the last year, and I want to cite as an 
example a communication to the Committee sent by the Director 
of the Secret Service, Mark Sullivan,\1\ who is, as I am sure 
most people here know, a non-political appointee with 33 years 
of law enforcement experience, who wrote a very strong letter 
of endorsement and asked that ``this dedicated and talented 
professional'' continue as Under Secretary for Management. 
Director Sullivan added, Mr. Borras ``has taken a proactive 
approach to enhance his understanding of the Secret Service, 
our operational requirements, and our contributions to the DHS 
mission. He effectively communicates with DHS leadership and 
implements policies to allow components the opportunity to 
leverage and maximize DHS assets and resources to improve 
operational effectiveness and efficiency.'' That is, in my 
opinion, a very important, influential comment.
---------------------------------------------------------------------------
    \1\ The letter submitted by Senator Lieberman from Mark Sullivan 
appears in the Appendix on page 105.
---------------------------------------------------------------------------
    Mr. Borras' recess appointment expires at the end of this 
year. If the Senate fails to confirm him, I believe it would be 
a significant loss for the Department, and so I hope that not 
only will our Committee confirm him again, but the full Senate 
will, as well.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman. We convene today 
to consider again the nomination of Rafael Borras to be Under 
Secretary for Management at the Department of Homeland 
Security.
    Two years ago, after careful consideration, I decided to 
oppose the nomination of Mr. Borras. This was extremely unusual 
for me as I believe that the President should have a great deal 
of latitude to nominate a person of his choosing to serve in 
the cabinet or in a senior executive position, but I had 
concerns at that time about Mr. Borras' lack of experience and 
his spotty compliance with our tax laws. I would note, however, 
that I was not the source of the hold that prevented Mr. 
Borras' nomination from being considered by the full Senate.
    The Under Secretary for Management oversees the management 
of more than 200,000 employees, a $50 billion annual budget, 
expensive procurement projects, and vital interagency 
coordination. Over the past 8 years, the Department has 
struggled to complete the enormous task of integrating 
thousands of employees and more than two dozen Federal agencies 
with different missions, traditions, and cultures. The 
Government Accountability Office (GAO) placed DHS on its High-
Risk List once again this year and concluded that ``DHS has not 
yet demonstrated sustainable progress in implementing 
corrective actions and in addressing key challenges within its 
management functions and in integrating those functions within 
and across the Department.''
    The Under Secretary for Management must ensure that there 
is efficient and effective use of personnel and technology to 
combat the very real threats that we face. To accomplish this 
goal, the Under Secretary must possess exceptional leadership 
abilities and a track record of management success. Indeed, 
this is not only my view, it is the law. Four years ago, our 
Committee enacted requirements that the Under Secretary must 
possess significant leadership capability, extensive executive-
level management experience, a demonstrated ability to manage 
large, complex organizations, and a proven record in achieving 
positive operational results.
    As the Chairman has indicated, due to a recess appointment, 
which circumvented the Senate and should not have been made by 
the President, Mr. Borras now has a year in a position that 
requires experience managing large and complex organizations. 
While Mr. Borras is admirably committed to public service, I 
continue to have some, albeit fewer, questions about whether 
his experience is sufficient to overcome the challenges that 
DHS faces.
    I sincerely hope that those remaining questions can be 
resolved favorably today. I want to hear his own assessment of 
what he has accomplished, and I will say for the record that in 
talking to people, including Mr. Borras' predecessors and the 
private sector, I am hearing generally favorable reviews of his 
performance during the past year.
    At the hearing in 2009, I also questioned Mr. Borras about 
what appears to be a pattern of errors on his taxes. These 
numerous tax errors still trouble me because they appear to 
indicate a lack of attention to detail and a pattern of 
carelessness.
    DHS needs a strong hand at the management helm. I intend to 
question Mr. Borras on his accomplishments to date and his 
plans for addressing the serious challenges that remain at DHS.
    Let me emphasize that I am certainly going to give this 
nominee another look in light of his experience over the past 
year, and I will certainly give him a fair opportunity to 
present his case for confirmation. I approach this hearing with 
an open mind and also in recognizing the year of on-the-job 
experience.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Collins. I 
appreciate that statement.
    Senator Akaka is Chairman of the Subcommittee on Oversight 
of Government Management, the Federal Workforce, and the 
District of Columbia, and in that capacity, he has been very 
involved with the Management Directorate at DHS and has worked 
closely with Under Secretary Borras.
    Normally nominees have people introduce them and Senator 
Akaka has actually asked for, I presume with your consent, the 
honor of introducing the nominee this morning. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman. I am 
delighted to be here as we consider Rafael Borras to continue 
as Under Secretary for Management at the Department of Homeland 
Security, and I am also delighted to have the Ranking Member of 
our Subcommittee, Senator Johnson, here.
    Mr. Chairman and Ranking Member Collins, I would like to 
take this opportunity to introduce and welcome Mr. Borras to 
the Committee once again and also to have the pleasure of 
welcoming his lovely wife, Ivelisse, and also Jason, his son, 
to this hearing, and also his supporters who are here with him 
from the Department.
    I first met Mr. Borras in 2009 before his confirmation 
hearing. I told him then that Elaine Duke was leaving him big 
shoes to fill at DHS. After over a year on the job, he has 
demonstrated his ability to improve the focus of management as 
a priority at the Department.
    Before coming to DHS, Under Secretary Borras had over 20 
years of Federal, local, and private sector management 
experience. During his tenure as the Under Secretary, he has 
made improving acquisitions and financial management, along 
with the rightsizing the contractor workforce at DHS, top 
priorities. I am pleased that he has also been focusing on 
getting DHS off the Government Accountability Office's High-
Risk List, where it has been since the Department was created 
in 2003. His office recently sent GAO and the Committee a 
detailed strategic plan for better management integration at 
the Department.
    I want to emphasize how impressed I have been with Mr. 
Borras' engagement with us. Last year, my friend and former 
Ranking Member Senator Voinovich and I held a series of monthly 
meetings with Under Secretary Borras to keep our Subcommittee 
up to date on his progress. He has continued to keep the 
Subcommittee apprised of management issues and has made himself 
available to the Committee and our staff.
    I will not go on about his qualifications except to say 
that I believe Under Secretary Borras has demonstrated his 
ability to lead the DHS Management Directorate, and I support 
his confirmation.
    Thank you very much, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Akaka.
    I will now proceed to the nominee. Mr. Borras has filed 
responses to biographical and financial questionnaires, 
answered prehearing questions submitted by the Committee, and 
has had his financial statements reviewed by the Office of 
Government Ethics. Without objection, this information will be 
made part of the hearing record, with the exception of the 
financial data, which are on file and available for public 
inspection at the Committee's office.
    Our Committee rules require, as I think you know, Mr. 
Borras, that all witnesses at nomination hearings give their 
testimony under oath, so I would ask you now to please stand 
and raise your right hand.
    Do you swear that the testimony you are about to give to 
the Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Borras. I do.
    Chairman Lieberman. Thank you very much. Please be seated. 
We would now welcome an opening statement if you would like to 
give it and an introduction, if you would like, of any family 
or friends who are with you today.

    TESTIMONY OF RAFAEL BORRAS\1\ TO BE UNDER SECRETARY FOR 
        MANAGEMENT, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Borras. Thank you, Chairman Lieberman, Senator Collins, 
Senator Akaka, and Senator Johnson. I thank you for the 
opportunity to appear before you today as you consider my 
confirmation.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Borras appears in the Appendix on 
page 34.
---------------------------------------------------------------------------
    It was a great honor to have been nominated by President 
Obama, and it has been my privilege to serve as the Under 
Secretary for Management. I have worked to earn the trust and 
the confidence of the Secretary, the Deputy Secretary, 
Department leadership, and our employees. It is my sincere hope 
that through my work this past year, I have earned your 
confidence, as well.
    I would like to thank Secretary Janet Napolitano and Deputy 
Secretary Jane Holl Lute for their tremendous support of the 
Management Directorate, as well as their personal support and 
encouragement of me. Additionally, I would like to thank the 
leadership and the employees of the Management Directorate. 
Their fine work and dedication have enabled me to build on the 
progress that has already been made by my predecessors.
    Furthermore, it has been pleasure over the last year to 
have had extensive interactions with many Members of this 
Committee and their dedicated staff. This Department owes a 
great debt of gratitude to you for your leadership and support 
in meeting the management challenges associated with weaving 
together the 22 agencies that came together in 2003 upon the 
creation of the Department of Homeland Security.
    The past year has been filled with many challenges. Since 
my appointment, I have led the development and implementation 
of a comprehensive strategic management approach focused on 
maturing organizational effectiveness within DHS. Through this 
effort, we are focused on enhancing the financial, acquisition, 
and human capital structures and processes necessary to meet 
DHS mission goals by integrating and aligning business 
functional areas at both the Department and component levels.
    I have submitted the Department's first comprehensive 
Management Integration Plan to the Government Accountability 
Office, and I have worked to prioritize sound financial 
management. Under my leadership, we have reduced financial 
material weaknesses from 12 to 9, audit qualifications from 10 
to 1, and material weaknesses in internal controls from 10 to 
6. I have also worked to provide executive oversight of the 
Consolidated Headquarters Project, which includes the St. 
Elizabeths campus, a project I know that is very close to your 
hearts.
    While the position of the Under Secretary for Management is 
the Department's Chief Management Officer, I have also 
addressed my role as the Chief Good Government Officer, 
constantly asking if our actions represent good government 
practices as well as making sure that we are responsible in our 
expenditures of taxpayer monies. Whether through the budget 
process or my regular interactions with the components, I am 
mindful of our need to be good stewards of the investments that 
the taxpayers are making to meet the critical mission needs of 
the Department.
    I am committed to continuing to work with this Committee in 
ensuring that the Department meets our most pressing management 
challenges. My predecessors, Elaine Duke, Paul Schneider, and 
Janet Hale, have done an admirable job of building a foundation 
for sound management practices at DHS. I take it as my 
responsibility to build upon their efforts, adding value to the 
Department's operators and helping to build a strong 
departmental management portfolio in support of the Secretary 
and the Deputy Secretary's leadership to unify DHS.
    Once again, I thank you for the opportunity to appear 
before you. I hope that I will be able to convey the passion 
with which I approach the management of DHS and hope to be able 
to continue to work with you for years to come.
    Thank you for your consideration of my nomination. Thank 
you to my family and to my friends and to my colleagues who 
generously joined me here this morning in support of my 
nomination.
    Chairman Lieberman. Thank you. Thanks for that opening 
statement.
    Let me begin by asking the standard three questions we ask 
of all nominees. First, is there anything you are aware of in 
your background that might present a conflict of interest with 
the duties of the office to which you have been nominated?
    Mr. Borras. No, Mr. Chairman.
    Chairman Lieberman. Second, do you know of anything, 
personal or otherwise, that would in any way prevent you from 
fully and honorably discharging the responsibilities of the 
office to which you have been nominated?
    Mr. Borras. No.
    Chairman Lieberman. And finally, do you agree without 
reservation to respond to any reasonable summons to appear and 
testify before any duly constituted committee of Congress if 
you are confirmed?
    Mr. Borras. Yes, I do.
    Chairman Lieberman. Thank you. We will start with a round 
of questions of 7 minutes for each Member.
    Let me begin with a broader question and give you an 
opportunity to give an overview. Obviously, you have been on 
the job now for just over a year. What is the greatest surprise 
that you have had about the Department of Homeland Security, 
and what do you feel best about that you have done in the first 
year?
    Mr. Borras. I welcome the opportunity to answer that 
question. I would say the biggest surprise I have had relative 
to what I have heard people say about the Department and its 
management has been that certainly it is not as horrible as it 
is made out to be. The employees of the Department of Homeland 
Security, particularly in the Management Directorate, are very 
bright, very qualified, hard-working individuals who care 
deeply about good management at DHS.
    I would say my biggest contribution over the past year has 
been to harness that dedication of the employees and to provide 
leadership. I think the most important qualification and the 
most important asset for the Under Secretary of Management is 
to be able to demonstrate leadership qualities, to be able to 
bring the Department together, to be able to add value, and to 
be able to build the relationships with the components and with 
the employees.
    I have focused on that tremendously over my past year, and 
I am very humbled by those members of the organization, like 
Director Sullivan and others, who have expressed appreciation 
for the work that I have done and the leadership that I have 
shown, and I am tremendously appreciative of the support and 
encouragement I have received from Secretary Napolitano as I 
have exercised that leadership.
    Chairman Lieberman. Good. This past year, along with Deputy 
Secretary Lute, I know you conducted a series of budget reviews 
with each of the components of the Department of Homeland 
Security. In your answers to the Committee's prehearing 
questions, you note that as part of this budget review process, 
you focused on ``identifying areas of redundancy and overlap 
between DHS components, looking for efficiencies and potential 
savings.'' And, of course, I appreciate that, and I wonder if 
you would discuss what you have done to find and eliminate 
overlapping and duplicative activities among DHS components.
    Mr. Borras. Mr. Chairman, I was very fortunate from the 
standpoint of the budget to arrive 1 year ago upon my 
appointment right in the beginning of the budget process. So I 
had a tremendous opportunity to work closely with the Deputy 
Secretary and all of the component leadership to begin to 
examine, as we were building the 2012 through 2016 budget, very 
carefully how we were proposing to make the investments in the 
Department and to support the critical mission areas, and 
through that process and chairing the program review budget 
process for most of that time, it gave me an opportunity to 
visit with the components.
    The way that we structured that meeting is we would examine 
the budget of one particular department--take Immigration and 
Customs Enforcement (ICE), for example--but we would have 
representatives from Customs and Border Protection (CBP), from 
the Coast Guard, and from other parts of the Department. And I 
used that opportunity to not only examine ICE's budget, for 
example, but to understand as ICE is building its budget, are 
they looking at and taking into consideration how CBP is 
building its budget, to look for opportunities to find 
commonalities and to make sure that we are not duplicating, and 
also to make sure that we are cognizant as we are building our 
budgets that we are looking at other expenditures in different 
components.
    For example, the Congress was very generous in providing 
$600 million to the Department to enhance our border 
protection, mostly through Customs and Border Protection. So I 
was very focused on how, for example, that major investment, 
which went predominately to CBP, influenced the development of 
ICE's budget, and how that influenced the development of the 
Coast Guard's budget because we cannot build these budgets in 
isolation of one another. So it was very important to focus on 
what are the interrelationships between how we build our 
budget, to look for areas of overlap or for duplication, and to 
push that out of our budget request. Look for areas of 
prioritization that support the Quadrennial Homeland Security 
Review that the Department worked so hard to develop and make 
sure that our investments were aligned with those mission sets.
    So my focus was on looking for those efficiencies and 
clearly coming to a point where we can recommend to the 
Secretary a budget and in turn submit a budget to the 
President, and of course, the President submits on behalf of 
the entire government, the DHS budget.
    Chairman Lieberman. Are you at a point in the process where 
you can cite any actual efficiencies that you believe have 
resulted from that process?
    Mr. Borras. Well, we concentrated on eliminating a lot of 
redundancies and looking for management efficiencies, and we 
were looking specifically for repeatable, not one time but 
repeatable, savings. So, for example, in our review of the IT 
portfolio, we examined areas where we were having either 
duplication or redundancies. A specific example, which resulted 
in about $150 million in savings, was being able to look across 
the enterprise at the number of Enterprise License Agreements 
that we had, licenses for software that were duplicative around 
the agency. So we very aggressively went after that and began 
to consolidate those to actually bring together new Enterprise 
License Agreements so that we can have standardized license 
agreements for like software.
    That is just one example of many instances where we 
reviewed the IT portfolio, we looked at our acquisitions, and 
we looked at expenditures related to people. We collapsed the 
Candidate Development Program for the Senior Executive Service 
(SES). The Department had four different SES Candidate 
Development Programs. Through this process, we focused on that 
as a priority, and we reduced it down to one Candidate 
Development Program that does a number of things. It provides a 
common training and leadership function throughout the 
Department, so we are training executives for leadership in the 
Department of Homeland Security, not necessarily in the 
component. Clearly, it reduces overlap and redundancy by 
eliminating duplicative training programs. There are just many 
examples that we worked with closely.
    Chairman Lieberman. That is great. Those are two very good 
examples. I appreciate them. Thank you.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Borras, Senator Lieberman and I have been concerned for 
some time about the Department's over-reliance on contract 
employees, so we asked the Department to give us a number. We 
said, how many contract employees do you have? In February of 
last year, the Department reported to this Committee that there 
were 210,000 contract employees at DHS. This was an astonishing 
number because it exceeded the number of Federal employees at 
DHS.
    Then about a year later, this year, the Department informed 
us that the initial estimate was overstated by 100,000 contract 
employees. It is extremely troubling to me that the Department 
would have so little notion of how many contract employees that 
are working at the Department that it could be off by a factor 
of 100,000. It demonstrates a management weakness at DHS if 
that error was not caught.
    How is it that DHS could report to this Committee such a 
wildly inaccurate number?
    Mr. Borras. Well, I will say two things. I appreciate the 
question, Senator Collins. When I arrived in the beginning of 
April, approximately 1 year ago, certainly, I was made aware of 
that estimate of 200,000 contract employees. I will say this is 
a good example of how I used my experience from the private 
sector specifically to question the validity of that number.
    Upon my arrival, just doing the math behind what the cost 
would be to support 200,000 contract employees did not make 
sense. I met with our Chief Human Capital Officer (CHCO), Jeff 
Neal, who actually had the same level of skepticism as I did. 
So we were very concerned about the veracity of that 200,000 
number. I directed the CHCO to work with the Chief Procurement 
Officer to go back to the contractor. They used a contractor, 
LMI, to develop an algorithm to be able to understand what the 
number of contractors were.
    So that is a specific example, Senator, of how I used my 
private sector experience, understanding how contractors are. 
We went in, we looked at that, and lo and behold, the 
contractor found an arithmetic problem in their algorithm and 
had to redo the assessment, which resulted in a new number of 
under 100,000 contractors, which resulted in that contractor 
returning their entire fee to the Department of Homeland 
Security based on their inability to do a good job on that 
assignment.
    Senator Collins. Mr. Borras, I want to be very precise 
here. Are you telling the Committee, then, that you were the 
individual in the Department who first raised questions about 
the 210,000 contractor employee figure?
    Mr. Borras. Well, prior to my arrival, between February, 
when the numbers were released, and March, I suppose there may 
have been other people who questioned the fidelity of the 
number. But I can absolutely tell you with certainty here, the 
Members of this Committee, that based on my experience, I 
determined very quickly that there was a big problem with that 
number. Just understanding the way contractors develop their 
rates, how they build their workforce, it did not add up. There 
was no way that I could determine that it was a good number.
    Senator Collins. I am very pleased to hear that. That is at 
odds with my understanding, which was that the contractor who 
was tasked with assessing how many contract employees DHS had, 
in fact, was the entity that discovered the mistake. But you 
are saying that is not correct.
    Mr. Borras. That is not correct.
    Senator Collins. I am very pleased to hear that.
    Should the Department have had a better handle on how many 
contract employees that it had?
    Mr. Borras. I think that is a very good question, Senator. 
There is an inherent difficulty in calculating the number of 
contractors that are working on DHS or any Federal contract. 
Many of our contracts are firm fixed-price contracts where, 
based on the way the contract is written, we do not know the 
actual work effort that the contractor is providing to DHS to 
provide a service, which is why most entities use some form of 
algorithm to be able to arrive at an estimate.
    However, the good news is, as a result of our effort and 
the effort of many others throughout government, the Office of 
Management and Budget (OMB) and the Office of Federal 
Procurement Policy (OFPP) have decided to take the lead in 
providing a consistent methodology, not just at DHS but across 
the government, so that we can use that to be able to better 
determine the number of contractors.
    Also, there is a tremendous need to have better reporting 
by contractors on the number of work year equivalents, so they 
can report that so we can better understand that.
    I agree wholeheartedly with the concern of this Committee. 
It is very difficult to invest that much money in contracts and 
not have a good handle on the number of contractors, which is a 
very important workforce issue for us. We need to make sure 
that we are properly staffed, that we have the proper 
management span of control, to oversee contractors. And until 
we have a good number and we understand that span of control, 
it is very difficult for this department or any department to 
adequately resource its span of control to manage contractors.
    Senator Collins. Mr. Chairman, in the 30 seconds that I 
have left----
    Chairman Lieberman. Go right ahead, Senator Collins. You 
can go over.
    Senator Collins [continuing]. I am just going to raise an 
issue that I raised last year. Mr. Borras, you and I had an 
extensive exchange last year on your 2005 and 2006 tax returns 
and the errors on them, and I am not going to go through that 
again because I think we had an extensive exchange.
    I am sure you reviewed the record in preparation for this 
hearing. Is there any new information that you would like the 
Committee to be aware of related to the mistakes that were made 
on those 2 years?
    Mr. Borras. I appreciate the opportunity to respond to that 
question. I would note for the record that I voluntarily 
provided that information prior to my nomination by the 
President. I provided all relevant facts and information 
regarding two very regrettable tax years where I made very 
simple mistakes, and that is a very humbling conversation to 
have in a public forum. Clearly, I think it was important that 
the Committee be aware of that information and that the 
Committee completely understand that I deeply regretted those 
errors. I had no record prior to or since that time of making 
those kind of errors.
    In the one year that I have been on the job--and I think it 
is a very legitimate question to ask--does it reflect upon my 
professional ability to do my job in a way that is not careless 
or reckless? There is nothing in my professional record, either 
before or since and clearly during my time at DHS, that would 
have anybody indicate that I am either careless or reckless or 
have no attention to detail.
    Senator Collins. So just to get back to my question, you 
stand by the answers in our exchange that we had on the taxes 
and there is no new information that you want to add, is that 
correct?
    Mr. Borras. I was completely forthcoming----
    Senator Collins. I am not challenging that. I am just 
asking if there is any additional information, and I think you 
are saying that you stand by the answers. Is that correct?
    Mr. Borras. I stand by the answers I made to this Committee 
and the more than 10 hours of discussion on the taxes I had 
with the staff, where, again, I believe I was extremely 
forthcoming on all of these issues.
    Senator Collins. Thank you. Just one final comment on that 
issue, and I will let it go. Every nominee is expected to be 
forthcoming if there are errors on their tax returns. That is 
not something that you get special credit for. That is required 
as part of the vetting process. I appreciate that you were 
forthcoming, but any nominee who was not forthcoming and tried 
to conceal errors on his tax returns would be in deep trouble 
with the Administration, I would hope, as well as with this 
Committee. So having said that, I appreciate your answer. Thank 
you.
    Chairman Lieberman. Thanks, Senator Collins. I mean, in 
fact, we have had maybe one that comes to mind of somebody who 
did conceal something in the vetting by the White House and 
before the Committee, and ultimately when it came out, the 
President withdrew his nomination, so thanks, Senator Collins.
    Senator Akaka, you are next.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Mr. Borras, earlier this year, you submitted a strategic 
management plan to address the Department's integration and 
other challenges related to the Government Accountability 
Office's high-risk designation. As I said in my introduction, I 
appreciate your attention to this issue. To what extent did you 
work with GAO in developing this plan and how has it been 
received?
    Mr. Borras. Thank you, Senator Akaka, for the question, and 
I appreciate the opportunity to expand a little bit on how we 
address the primary issues that GAO was focused on, which was 
DHS's designation of a high-risk agency around management 
transformation and building a better relationship with GAO.
    I committed to this Committee and to the Secretary and the 
Deputy Secretary that would be among my highest priorities, to 
rebuild the relationship, to build a very good, strong 
relationship with GAO as well as with the Inspector General 
(IG), and to focus my efforts around getting the Department off 
of the High-Risk List.
    My assessment of the original plan that had been submitted, 
although it was a good plan, was that it was primarily a 
tactical plan to address specific tactical issues that were of 
a high priority to the Department. My focus was to develop a 
very comprehensive framework to address systematically a whole 
series of management challenges in the Department, and I used 
that opportunity, working in the Department, both within the 
Management Directorate and with the components, to bring the 
Department together in the development of this comprehensive 
plan.
    The comprehensive plan, which I have as a prop in front of 
me, is a very substantial plan. It represents the first 
attempt, acknowledged by GAO, to put together a comprehensive 
framework on how we will address the High-Risk List, how we 
will get off, with specific, comprehensive action plan items 
that we have put in place with timelines and deadlines, and we 
submitted this back in January to GAO. GAO has designated the 
report as being an important step toward getting off of GAO's 
High-Risk List.
    I want to thank GAO for collaborating with us during the 
development of this process. I had several meetings with GAO 
staff to talk about and better understand the designation of 
high risk, to better understand the kinds of areas they were 
looking for to be able to focus on what is improvement and how 
we will measure improvement and document improvement, and that 
is what is represented in this plan. And we are holding 
ourselves accountable. We are meeting with GAO on a quarterly 
basis to review progress against the milestones and the 
timelines we have set.
    Senator Akaka. Can you further express how you felt it was 
received?
    Mr. Borras. I would say that the reception by GAO was very 
significant for us at the Department of Homeland Security. It 
represented the first time that we had a comprehensive approach 
to address getting off the High-Risk List. In their 
communication back to me, again, they represented this effort 
as being important, significant progress.
    We have changed the nature of the conversation with GAO. No 
longer are we talking about what it will take to get off the 
High-Risk List. Now, we are talking about measuring our 
progress on getting off of the High-Risk List. That is a very 
important change in the past year.
    Senator Akaka. Mr. Borras, DHS continues to struggle with 
employee morale and ratings in the Best Places to Work survey. 
I believe improving employee satisfaction is critical to 
recruiting and retaining an excellent workforce. What steps are 
you taking to address this issue?
    Mr. Borras. Senator Akaka, you have repeatedly raised this 
issue as being important to you, important to your 
Subcommittee, important to the full Committee, and this issue 
is something that we have taken very seriously. We have taken a 
look at the Federal employee surveys conducted over the last 
several years. There are a couple of points I would make.
    First of all, DHS continues to make improvement. I would 
not refer to it as significant improvement, but demonstrable 
improvement every year as it relates to the Federal survey. So 
we are beginning to address the issues of employee morale, but 
there is a long road to go.
    We have convened several employee focus groups to follow up 
on specific items raised and identified through the Human 
Capital Survey. Additionally, we are having our own surveys 
conducted in the Department, again, to better understand and to 
involve employees in seeking specific remedies to be able to 
address how we will improve morale.
    One of the most important facts around improving the morale 
is how we communicate to our employees. Speaking for myself, we 
have done numerous town hall meetings. I personally go out and 
meet with employees. We hold collaborative working sessions. We 
have been very collaborative in working with the employees of 
the Management Directorate, and I will note that the Management 
Directorate--before my time there, but I should give credit to 
this--has the highest employee satisfaction rating of any 
entity within DHS.
    So we have a well motivated, very experienced, and very 
dedicated workforce. I am very proud of them and of being able 
to represent them. And we are taking a look at those lessons we 
have learned in the Management Directorate and applying them to 
the components, working with their leadership.
    Senator Akaka. As you know, in 2010, the Office of 
Personnel Management scored DHS as being poor in morale, and 
this is the reason I have been concerned about that and am glad 
that you are working on this.
    Mr. Chairman, I will take a second round.
    Chairman Lieberman. Thanks, Senator Akaka.
    Senator Johnson, thanks for being here. I must say, since 
you have come to the Senate and joined the Committee, you have 
really been very faithful in attending our hearings, and as 
Chairman, I appreciate it.

              OPENING STATEMENT OF SENATOR JOHNSON

    Senator Johnson. Well, thank you, Mr. Chairman. It is 
important work, so I am glad to do it.
    Mr. Borras, it is a pleasure to see you again, and welcome 
to your family. I would imagine you have a core team of 
managers, subordinates who work for you. Can you describe to me 
who those folks are and what their function is and how you work 
with those people?
    Mr. Borras. Yes. The core team of the Management 
Directorate is comprised of the Chief Financial Officer (CFO), 
the Chief Information Officer (CIO), the Chief Procurement 
Officer, the Chief Human Capital Officer, the Chief Security 
Officer--probably a couple of other chiefs there that---- 
[Laughter.]
    Senator Johnson. Sure.
    Mr. Borras. I am blanking at the moment. The Chief 
Procurement Officer, the Chief Human Capital Officer, the Chief 
Financial Officer, the Chief Security Officer----
    Senator Johnson. That is OK. It is not a quiz. I just 
wanted to find out how you deal with those folks, I mean, in 
terms of their responsibilities. How far do you dig down into 
their functions?
    Mr. Borras. Well, that is a great question, and it was very 
important upon my arrival to establish a collaborative working 
environment with the chiefs of the lines of business. One of 
the things that I have emphasized, particularly around 
management integration, is if we are going to promote 
management integration, we have to live an integrated 
management style. So I work very closely with the chiefs. I am 
not a micromanager, but it is very important to convey 
priorities, to hold them accountable, to identify what are the 
priorities, what are the action items we are going to take. We 
meet weekly. We review progress. We have changed the way we 
communicate among ourselves, and Senator, I will tell you why I 
think that is important.
    In the past, there was a tendency in these lines of 
business to communicate vertically, that is, to communicate 
from a line of business to the Under Secretary and to have a 
series of one-on-one conversations. What we have done is we 
communicate both vertically and horizontally. Any communication 
that comes to me from a chief, for example, my weekly reports, 
also goes to all the other lines of business chiefs so we have 
complete transparency on the conversation that is taking place, 
so we do not have siloed conversations. We are living the 
experience of management integration. We address all management 
areas, whether it be a financial matter, an acquisition area, 
with all of the chiefs present.
    So this is part of my collaborative management style. It is 
the way that we demonstrate to the rest of the organization 
that we are all in this together. It is reflected positively by 
the components because they see that we address these issues 
together. So I think that is a direct result of my management 
style. The chiefs have responded very well to that style. They 
communicate well with each other, and I am very proud of the 
work that they do. We could not have had a management 
integration plan without all of the chiefs being involved and 
represented in this effort, and this plan is made up of every 
one of those functional areas, the Chief Financial Officer, 
Chief Human Capital Officer, Chief Information Officer, all of 
the chiefs. We are a true team.
    Senator Johnson. Are they members of the SES?
    Mr. Borras. Yes, they are, Senator.
    Senator Johnson. We just recently held a hearing on the SES 
and the problems in recruiting top managers in the government. 
Are you seeing similar types of problems, and what would those 
be?
    Mr. Borras. Well, I will tell you, Senator, right now, we 
are seeing a tremendous amount of interest in the positions 
that we advertise at DHS. We are probably getting in excess, 
for some positions, of 1,000 resumes. People want to come to 
DHS. Now, not all 1,000 applicants may be specifically 
qualified for the positions they are applying for, but I take 
that as a very good sign. People are interested in coming to 
DHS. They recognize the good work that we are doing. And yes, 
it is making our job harder to look through the applications of 
very qualified individuals, but that is going to make us better 
as a Department, and I think that is partly as a result of the 
leadership at the Department, the very strong affinity for the 
mission, and the work. The work is very challenging. We are not 
having trouble attracting candidates.
    Senator Johnson. Would that be across the board at DHS? I 
am particularly interested in hearing the problems of having 
career government employees make the leap up to the SES level.
    Mr. Borras. Well, one of the reasons why we focus so 
strongly on consolidating these leadership development programs 
in the Department is to have a single way in which we train 
leaders so that the SES corps has the mobility to be able to 
move between the components and headquarters. We want to 
facilitate that movement in the Department. We want the 
leadership to be mobile and transparent.
    In addition to the consolidation and development of one 
single SES Candidate Development Program, we have just finished 
a very extensive recruitment within the Department, and quite 
frankly, it was a tremendous challenge to pick the first cohort 
because there were so many applicants from within the 
Department that want to be a part of the SES program. So we are 
getting, again, Senator, great enthusiasm to come forward and 
do that, and I think that is a real tribute to the work that is 
being done at the Department and the leadership.
    Senator Johnson. So you are not seeing, then, a reluctance 
from members at the GS level to move into the SES?
    Mr. Borras. No, we are not. I am not seeing that, Senator.
    Senator Johnson. Well, good. That is good news.
    What is the most important thing you have learned in your 
year in the position?
    Mr. Borras. Well, I think the most important thing that I 
have learned, which is very much at the heart of my approach 
and my style, is to engage with the workforce, to interact with 
the employees, with the leadership. I am very active in getting 
out and understanding. I have a strong need to understand. For 
example, during the budget process, we spent a lot of time 
looking at investments on the border. Prior to the budget 
process, I went out and visited. I walked the border. I do not 
come from a border State. I wanted to better understand the 
issues at the border, but I wanted to talk to the men and women 
who work on the border, the Border Patrol agents, the field 
operation personnel, to understand their needs. What is it that 
they need from the organization to better do their job?
    It gave me some very important insight, doing these kinds 
of things. I did the same thing with ICE, the Secret Service, 
and the Coast Guard to better understand the operational side. 
So when we are looking at, for example, how we plan to bring in 
1,000 new Border Patrol agents as a result of, again, the fine 
money that we got from the Congress to support our border 
initiatives, I wanted to better understand from the men and 
women on the border, what was that going to mean to them? How 
were they going to be able to absorb 1,000 Border Patrol 
agents, not just what do the supervisors in Washington think, 
but what do the field superintendents think? What do the rank 
and file think? What was going to be the back-room support? 
What kind of support was going to be needed to be able to add 
1,000 additional agents?
    I learned a lot from that. First of all, they did not see 
where we would have the space, the facilities to be able to put 
1,000 new people. They did not feel that we had adequate 
administrative support to support 1,000 new agents. These 
concerns were very enlightening. These were very good, 
verifiable, and quantifiable statements I learned from walking 
the field, and I was able then during the budget process to be 
able to quiz Customs and Border Protection, for example, on 
what they were doing, how they were looking at their management 
budget, how they were looking at their management 
administration of Border Patrol and how that was going to 
reinforce the operational side and whether or not they were 
going to be able to have the resources to support those 
additional agents.
    I think it is important that the Under Secretary not just 
be a member of leadership and sit in Washington and manage, but 
understand the operational needs so that we can better support 
them.
    Senator Johnson. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Johnson. We will do 
a second round of 5 minutes each, if that works.
    Senator Akaka earlier spoke briefly with you, Mr. Borras, 
about acquisition and procurement, and as you know, the 
Department has had some really significant cost overruns. 
Acquisition management is a major challenge for the Department 
because contracting, as you discussed with Senator Collins, is 
a significant portion of the DHS annual budget, roughly one-
third of the budget. So I want to ask you, based on this year 
of experience you have, what do you believe the key challenges 
are that face DHS with respect to acquisition management and 
what have been any initiatives that you have taken to improve 
the Department's acquisition management?
    Mr. Borras. Mr. Chairman, I will try to be brief on this 
answer. This is probably one of the areas I spend the most of 
my time on, which is better understanding and working on fixing 
the acquisition process.
    The first thing I should say is that my predecessors left 
behind a very good foundation in the establishment of MD-102.1, 
which was the acquisition framework that was put in place to be 
able to govern the Department's acquisition investments. Keep 
in mind, that was formally adopted by the Department in January 
2010, so my immediate predecessor, Elaine Duke, who worked very 
hard to put that in place, had very little time to actually 
implement the process. So, again, by result of my showing up at 
that time, I have had to implement the tenets of MD-102.1.
    The important piece of that was establishing a governance 
framework for the Department, which we call the Acquisition 
Review Board, to be able to examine at very specific points in 
the acquisition process the health of an acquisition program, 
to be able to identify problems with acquisitions, and to be 
able to, hopefully, correct these issues. I have personally 
chaired over 35 acquisition review boards in my year on the 
job.
    I stated to this Committee when I was first nominated that 
in the acquisition area, I had two fundamental concerns: How 
well do we identify capabilities and build requirements to be 
able to buy goods and services, and then how well do we execute 
upon award of those contracts the management of those 
acquisitions. I would say to you, and both the IG and GAO have 
identified this, those were the two fundamental problems that 
DHS faces, and that is what I have dedicated the bulk of my one 
year on the job, to address that, and I would love the 
opportunity to go on in detail, but it is a very comprehensive 
approach, but that is what I have spent the bulk of my year, 
that along with financial management, addressing the 
acquisition liabilities.
    Chairman Lieberman. Good. That is a good beginning.
    A final question about agency Chief Information Officers. 
As I am sure you know, a report by the IG at DHS found that the 
Chief Information Officer of the Secret Service was ``not well 
positioned as a member of the Director's management team'' and 
``does not play a significant role in overseeing IT systems 
development and acquisition efforts.'' So this is concerning, 
that 15 years after the creation of the CIO in the Clinger-
Cohen Act, we are still seeing CIOs effectively buried in some 
agencies' organizational systems. This is particularly true 
because of the billions of dollars spent on IT investments at 
the Department and throughout our government.
    So I wanted to ask you what, if any, steps you have taken 
to make certain that component CIOs have the necessary 
authorities to ensure that IT projects and decisions support 
individual agencies, but also department-wide objectives.
    Mr. Borras. Thank you, Mr. Chairman. Certainly, the Under 
Secretary for Management has a strong role, but I should say 
the management of IT within the Department of Homeland Security 
begins first and foremost with the Department of Homeland 
Security's Chief Information Officer, Richard Spires, who is 
also, by the way, the Vice Chairman of the Federal CIO Council. 
We have probably the finest CIO in the Federal Government who 
is completely focused on better understanding how we manage our 
IT assets, looking at the relationship between his office, the 
Departmental CIO, and the component CIOs.
    Specifically, with regard to the Secret Service, you raise 
a very important question as to whether or not the CIO is 
properly enfranchised to be able to manage the IT investments 
in the Secret Service, and, I might add, the Secretary has 
asked me, and as a result I have asked our CIO, to prioritize 
what we are doing regarding Secret Service IT modernization. 
That is very important to the Secretary. Therefore, it is very 
important to me.
    We have a brand new CIO at the Secret Service, who our CIO, 
Mr. Spires, helped interview and helped select. And keep in 
mind that the CIO evaluates and is responsible for performance 
measures and indicators for every one of the IT professionals, 
the CIOs in all of the component agencies.
    But we are doing more than that. It is the way that we are 
now governing the Department's IT investments, partly through 
my Acquisition Investment Initiatives, that have expanded the 
use of much more aggressive oversight through the use of 
executive steering committees. So we are very much focused on 
the issue you have raised.
    Chairman Lieberman. Excellent. Thank you. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Borras, I want to follow up on the exchange you just 
had with the Chairman about IT projects. According to OMB's IT 
Dashboard, more than half--some 49 out of 90 investments--of 
the major information technology investments at DHS are in 
troubled status. That means they are either at risk for a 
significant cost overrun, a schedule delay, or performance 
problems. IT spending is a major cost driver at DHS. DHS is 
slated to spend more than $6 billion on IT investments in 
fiscal year 2011 alone. It is very troubling, therefore, that 
more than half of those projects are in serious trouble.
    One critical tool that can help to ensure proper oversight 
and management of these investments is an effective acquisition 
review process. I know for the last several years DHS has been 
trying to strengthen that process. When do you expect that we 
are going to start seeing significant improvements in the 
performance of IT projects at the Department?
    Mr. Borras. Senator, I appreciate the question. I 
appreciate the leadership this Committee, particularly you and 
the Chairman, have placed on the proper management of IT 
investments. It is a $6 billion investment we are making on an 
annual basis at the Department of Homeland Security.
    I look at GAO's top 15 list of what they call poorly 
running acquisition investments, and most of those are IT 
investments. A few things I would say about that: First of all, 
most of those IT investments that are poorly functioning or 
have cost overruns, in many cases, they predate the 
establishment of the Department of Homeland Security, like the 
Automated Commercial Environment (ACE) program, for example, 
which has been going on, I believe, since 1993.
    So what have we done about ACE? I will give you a perfect 
example. We are calling it a strategic time-out. We have 
suspended ACE. What we need to do and why we need strong 
governance is we need to be able to review these projects, and 
then we need to be able to make corrective action. It is one 
thing to identify poorly functioning IT programs. What are we 
going to do to help it get better, or if it cannot get better, 
what are we going to do to end it?
    In the case of ACE, what we have done is establish a 
strategic time-out. We are taking a look at instituting a 
modular approach, which is consistent with Vivek Kundra's 25-
point plan for IT. So we have much more modular, agile 
development. We have put them on a plan to be able to deliver 
M1, a one module this calendar year. And we are working very 
aggressively. The CIO and the IT community are working very 
aggressively. We have stood up an executive steering committee 
in many of these programs to expand our oversight.
    My basic concern within the Department, and I have talked a 
lot about this, relative to acquisition oversight is MD-102.1 
put in place the Acquisition Review Board, which meets at pre-
determined acquisition gateposts--during the requirements 
phase--and my problem is, these are so wide apart, sometimes a 
year or more apart, how are we providing oversight to an 
acquisition program, whether it be IT or otherwise, in between? 
And that is what I have been focusing on. How do we develop 
more aggressive oversight in between those milestones?
    Senator Collins. Well, I would suggest that there is a more 
fundamental problem, and that is a failure to define 
requirements well up front, to define what is the need for the 
procurement, how is it going to be used, could off-the-shelf 
technology suffice. I am shocked that there is a 1993 IT 
project that still has not been completed or abandoned. I 
cannot imagine that the requirements have not changed during 
that time or that the technology that they started with is not 
obsolete. So I think it is not enough to monitor along the way, 
though that is absolutely critical and I commend you for the 
steps you are taking, but you have to better define what your 
needs are and establish the requirements up front.
    Let me just very quickly touch on one other issue. It is a 
very quick question. The move to St. Elizabeths, that 
consolidation of headquarters is the largest Federal 
construction project since the Pentagon. Is this still a 
priority for the Department, given your budget constraints?
    Mr. Borras. Well, it is absolutely a priority, Senator. 
Again, I know this Committee has supported the Department of 
Homeland Security tremendously. The good news is that project 
is meeting its major milestones. The Coast Guard facility that 
we are building, it is on budget, it is actually slightly ahead 
of schedule. It is one of the cleanest construction sites I 
have ever seen, and I have spent 10 years in the construction 
business. But that is an indication of good management, good 
planning, good safety. It is a well-run site.
    I have been a strong advocate for that. I have met with the 
Appropriations Committee both in the Senate and the House to 
strongly advocate for the continuation, the maintenance of our 
funding stream. We need to meet those major milestones and 
continue to fund these projects so that we do not have major 
lapses. I am very concerned about costs increasing as a result 
of delays.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks, Senator Collins. Senator Akaka.
    Senator Akaka. Thank you, Mr. Chairman.
    Mr. Borras, I want to commend the Balanced Workforce 
Initiative to correct the Department's Federal employee 
contractor mix. As you know, the Committee is vitally 
interested in the contractors in DHS. Will you please discuss 
the Department's efforts to ensure that inherently governmental 
positions are brought in-house and make a comment on whether 
this initiative is having a positive effect in your workforce. 
I also gather that your Chief Human Capital Officer has a part 
in heading the Balanced Workforce Initiative, and I am 
interested in how it is working out.
    Mr. Borras. Senator, the Balanced Workforce Strategy, which 
we developed into an actual program that we manage, actually is 
managed out of the Office of the Chief Human Capital Officer 
because we want to maintain the focus on the employee part of 
it. There are two pieces to that.
    One part is we have looked at and we have received--we have 
worked with OGC, we have worked with OMB, we have worked with 
OFPP--good, consistent Federal guidance on the definition of 
inherently governmental and non-inherently governmental. So we 
have applied that standard.
    The second part of it is, and when I joined the Department, 
this was my concern relative to the Balanced Workforce 
Strategy, that it not be viewed strictly as a contractor 
conversion exercise but that we use this opportunity while we 
were making these assessments on the use of contractors to also 
look at whether a contract has met its useful life--so 
evaluating the ongoing need for a contract.
    I started my career in the State of Florida, which had 
strong sunset legislation, and I bring that orientation with 
me. You have to constantly ask, is this contract still viable? 
Is it still necessary? Is the requirement from which we 
initiated this contract, to get to the Senator's point, good 
requirements, is it still valid? If not, kill it.
    So we are doing two things. We have been having a very 
aggressive approach to do this conversion where we eliminate 
contractors and we hire Federal employees to be able to manage 
functions, and we are looking at whether or not the contractor 
is still viable. So it is a two-prong approach.
    Senator Akaka. Mr. Borras, over the past several years, the 
Department has worked to create an integrated financial 
management tool known as Transformation and Systems 
Consolidation (TASC), which has grown to include acquisition 
and asset management. I understand that because of a 
contractor's protest, the contract for this project is once 
again halted. What are the Department's plans for moving 
forward on integrated financial management, and should we 
expect to see additional changes to the TASC contract?
    Mr. Borras. Thank you for the question, Senator. The 
Department is in great need, I would say almost dire need, to 
have an integrated enterprise financial management system to be 
able to better manage the Department. We are a Department, as 
has been said before, of over 200,000 employees, a top line 
budget of approaching $56 billion, and we do not have a 
consolidated, integrated financial management system that 
allows decisionmakers to be better informed on a timely basis 
and the Department to be able to respond to Congress for 
financial information on a timely basis. It is a severe 
liability for the Department. So getting that initiative in 
place is fundamental, both to our integrated strategy and to 
the health of the Department.
    Specifically with regard to TASC--the procurement for TASC 
went out in 2009. This was not the first attempt at trying to 
create a consolidated management function for the Department. 
We have had several other failed attempts. This current one has 
been riddled with protests. There were several protests before 
we were able to finally award the contract this past November.
    I think this speaks very well to the issue that Senator 
Collins raised about the need to have good requirements and to 
understand the marketplace and what does that marketplace 
deliver, whether or not the marketplace can deliver an 
integrated financial management system, whether one exists in 
the Federal workplace currently.
    GAO in their ruling found that there were missteps along 
the way, both in terms of how the requirements were interpreted 
and how it was evaluated, and GAO has sustained those protests. 
We are currently taking a look. We are analyzing GAO's 
statement on those protests, and we are looking at OMB's 
guidelines--it is very important that we evaluate OMB's 
guidelines for the implementation of financial management 
systems. We are looking at both of those things to be able to 
chart a new course.
    So I am not in a position today to be able to specifically 
identify what the Department's next course of action will be.
    Senator Akaka. Thank you very much for your responses, Mr. 
Borras. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Akaka. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Mr. Borras, in your first round of questioning, you talked 
about what you learned down at the border, and I was just 
recently at the border entry down at Nogales, and I have 
learned a few things myself. I know we obviously are concerned 
about border security, but one of my concerns is the staffing 
levels of Customs and Border Protection in those ports. I mean, 
we are expanding the size of the ports, but I am afraid we are 
not staffing them to the extent that we need to. I want to get 
your thoughts on that and to what extent are you involved in 
that ratio between the Customs Service agents versus the Border 
Patrol agents.
    Mr. Borras. Senator, you raise a very important question, 
and it leads me back to something that I talked about in my 
policy questions, which is workforce planning. Workforce 
planning is a major deficit in the Department. One of the 
reasons why we often have delays in hiring--and I will 
specifically address your question--is because of the inability 
to do good workforce planning, to be able to project in the out 
years, what are your specific workforce needs? How will you 
staff that? How will you pay for that? How will you introduce 
that? How will you train the employees? How will you equip 
employees? Good workforce planning is so key to being able to 
have a well-functioning, well-run department.
    So specifically with regard to the border, the Border 
Patrol since 2006 has nearly doubled in size. I would say to 
you from a management standpoint that it is very difficult to 
even assess whether Customs and Border Protection has been able 
to sufficiently absorb that tremendous growth in that short 
period of time. So we are working very closely with Customs and 
Border Protection. And, in fact, they are adopting some of the 
same things that I am doing at the departmental level relative 
to much more in-depth budget reviews, base budget reviews and 
analysis within Customs and Border Protection because they 
recognize they have grown so fast, so quickly, and have had to 
absorb so many people that they have not taken the time to 
assess the current management health of their organization and 
if they have adequate resources, as I stated earlier and as you 
have found out in your work. Do they have the proper facilities 
to be able to house the employees? Do they have the proper 
administrative support to support the employees in the field? 
Do they have the necessary equipment and the replacement 
equipment to adequately equip our employees on the border? So 
these are very fundamental questions. This is not something 
that we currently do extremely well.
    The Balanced Workforce Initiative, for example, will 
migrate to a Workforce Planning Initiative at the conclusion of 
this run. That is how important it is. We are going to maintain 
this focus. We are going to develop at the headquarters level a 
Department-wide Workforce Planning Initiative because we need 
to do a better job of managing that.
    Senator Johnson. But specifically, talk about the ratio of 
new personnel going into the Customs Service versus the Border 
Patrol because, again, it seems like we have poured additional 
personnel into the Border Patrol, and I am afraid we are not 
putting the resources into the ports of entry.
    Mr. Borras. I do not specifically know what those numbers 
are, Senator, but I will be glad to get the information back to 
you on what those ratios are.
    Senator Johnson. Thanks. Earlier, you talked about reducing 
the number of audit qualifications. Can you tell me 
specifically which ones were removed and how you managed to do 
that?
    Mr. Borras. Well, there is an effort that we run--most 
Federal agencies run it--there are Internal Controls Over 
Financial Reporting (ICOFR) and there are also Internal 
Controls Over Operations (ICOOP). When I first joined the 
Department, I personally chaired those sessions with our staff 
from the financial audit. These are meetings that we hold with 
all of the components so that I can begin to assess for myself 
what were some of the vulnerabilities and liabilities.
    For example, in ICOOP, one of the things that we look for 
is how well are we staffed because if we are improperly 
staffed, from a diagnostic standpoint, that tells me that we 
might have a problem with segregation of duties, which is a 
fundamental tenet of good financial controls.
    We also look at the authority matrix. Again, when an 
organization is understaffed, do they have the good segregation 
of duties? Do they have the proper authority matrices in place 
to be able to say who authorizes a certain activity, which can 
lead to a material weakness.
    So I personally chaired these meetings because I wanted to 
do things. I wanted to better understand the health of the 
financial operation myself, and I wanted to send a message that 
this was such a priority to me, I was willing to spend 
countless hours, Senator, chairing and facilitating these 
meetings to send the message that we are going to be looking at 
their financial operations, that it is important to me, and 
that the staff has my support and backing to be able to address 
this.
    It begins with leadership, Senator, and making that 
leadership statement and making that leadership commitment 
allowed the staff, the Chief Financial Officer staff working 
with the component staff, to begin to specifically drill down 
on reducing these material weaknesses in our audit findings. I 
also have new personnel in audit, as well. We are going to 
continue to do this, and I have announced this publicly within 
the Department, for our financial grants, as well, which is 
another area that requires strong, aggressive oversight.
    I can get back to you with the specific data on those 
material weaknesses that have changed, and I can give you a 
historical sense of how they have evolved over time, over the 
life of the Department.
    Senator Johnson. Well, maybe we can do those during those 
monthly meetings, which I would like to reinitiate.
    Mr. Borras. I would look forward to that.
    Senator Johnson. Thank you very much.
    Chairman Lieberman. Thanks, Senator Johnson. Senator 
Carper, welcome.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman.
    Welcome. We are happy to see you. Thank you for joining us 
today. I understand your family is with you.
    Mr. Borras. Yes, Senator.
    Senator Carper. And you have already introduced them, have 
you not?
    Mr. Borras. Yes, I have.
    Senator Carper. Are they right behind you there?
    Mr. Borras. Well, yes, I have my wife, Ivelisse, and----
    Senator Carper. Is that your daughter? [Laughter.]
    Chairman Lieberman. You do not have to answer that 
question. [Laughter.]
    Mr. Borras. I am not going to answer that question.
    Senator Carper. All right. Well, glad you are here. I am 
happy that your family is willing to share you with all of us 
and with our country.
    A couple of questions, if I could. I am privileged to serve 
on this Committee and privileged to serve as chairman of a 
subcommittee that deals with, among other things, Federal 
financial management. We held a hearing here about a week or 
two ago, Senator Brown, Senator Coburn, and others, and we 
focused on major weapons system cost overruns and how much we 
are overspending for major weapons systems. The amount we were 
spending in the year 2000 was $42 billion. Last year, it was 
$402 billion.
    Former President Bush signed into law a number of years ago 
in his first term an improper payments law. It basically says 
that Federal agencies have to start keeping track of their 
improper payments, mostly overpayments, not so much fraud, just 
accounting mistakes, and some agencies did. Some did not. The 
Department of Homeland Security was new. They had a hard time 
complying with the improper payments law.
    Senator Coburn and I authored legislation with the support 
of Members of this Committee, including Senator Akaka and 
Senator Lieberman, that said that not only do we want agencies 
to keep track of their improper payments, we want them to 
report their improper payments. We want them to stop making 
improper payments. We want them to go out and recover the 
improper payments that they have made. We had in the law a 
directive that says Federal managers are going to be evaluated, 
at least in part, on whether or not they are complying with 
that law to report improper payments, to stop making them, and 
to recover them.
    The Department of Homeland Security does not have a good 
record in terms of collecting improper payments. It is not a 
little bit of money. We had a hearing in the last month that 
said the improper payments for the last fiscal year was $125 
billion. That does not include the Department of Defense (DOD). 
I am not sure if it includes the Department of Homeland 
Security. I have asked my staff to check. Apparently, DHS is 
not reporting improper payments. At least that is what I am 
told as of now. And so the $125 billion in improper payments 
from last year does not include DOD. It does not include DHS. 
And I do not think it includes Medicare Part D. I am not sure 
if it includes Medicare Part C, but a big piece of the Federal 
Government is out there that is not actually reporting.
    And here is my question of you, and it may not be a fair 
question, but I will ask it anyway. When is DHS going to start 
reporting and complying with the improper payments law?
    Mr. Borras. Well, two things. First of all, Senator, thank 
you so much for being here----
    Senator Carper. And we are glad you are here.
    Mr. Borras. Thank you. I appreciate that. Thank you for 
recognizing my family.
    Senator Carper. Sure.
    Mr. Borras. That is very kind of you.
    I recently addressed and have been very much focused on 
this. The major liability the Department of Homeland Security 
has with respect to financial reporting is the lack of 
financial systems that allow us to be able to retrieve that 
information in a timely manner and then report it with any 
level of fidelity. We simply do not have it.
    As you well know and this Committee well knows because you 
have supported greatly the Department of Homeland Security in 
their effort to build an integrated financial management 
system, we do not have a system. Senator, the first memorandum 
that I signed as Under Secretary a year ago when I joined this 
Department was to do a data call. That is, to do a manual 
retrieval of information to be able to report. I had to give 
the components 60 days to collect the information, 30 days to 
analyze it, and then we hoped in the next 30 days after that we 
would know enough about what we could report on.
    It is a major deficiency. It is a major liability that I am 
personally committed to addressing. We do not have good 
information, for example, as it relates to our grants. Our 
ability to report on our grants, to look at obligated and 
unobligated balances, is virtually nonexistent. Again, these 
are manual retrievals of information that we have to conduct. 
Within the Coast Guard, we have multiple financial systems. 
Senator, I am sure you understand and probably are dismayed by 
the fact that the Coast Guard runs two general ledger systems, 
and they do not talk to each other.
    This is very important to me. This is a major liability. We 
have addressed this in our integrated comprehensive strategic 
plan that we have submitted to GAO. It is going to take time to 
build that capacity in the Department of Homeland Security. We 
are investigating ways in which we can build some work-arounds 
to be able to retrieve data. Of course, as you well know, one 
of the major concerns we all would have is what is the 
integrity of the data that is in the system right now.
    Senator Carper. Let me just interrupt you. I do not mean to 
be rude, but I only have so much time, and let me just come 
back to the question I raised about improper payments. It is a 
huge problem. Most agencies are now complying. DOD is not. We 
are all over them. DHS is not. And we are just going to be, not 
in an obnoxious way but in a persistent way, all over your 
Department to make sure that you comply with the law. We need 
you to help set an example for others, including the Department 
of Defense. If you can stand up as a new department and comply 
with the law in a reasonable amount of time, that is a good 
example for a Department that has been around for 60 years and 
still is not complying.
    Could I ask one more question, Mr. Chairman?
    Chairman Lieberman. Please go right ahead.
    Senator Carper. Thanks so much. I will be brief. The 
Department of Homeland Security has undergone a number of 
reorganizations, even though it is not that old. Many of the 
components, such as the Secret Service, the Federal Emergency 
Management Agency, the Coast Guard, to name a few, are not, as 
you said, yet fully integrated. Many of their employees do not 
think of themselves as Department of Homeland Security 
employees, which has contributed to an increased bureaucracy 
and a tough way of getting things done.
    Secretary Napolitano's new motto, ``One DHS,'' has been, I 
think, a promising start. You have been in your role now for 
about a year. I am glad you are there. I think most of us feel 
that way. Could you discuss for us, just in a couple of 
minutes, how you have been working to integrate these legacy 
components into the Department architecture to be one team?
    And second, would you talk about a couple of management 
surprises that you were forced to tackle when starting the job? 
Just mention one or two. Thank you.
    Mr. Borras. The first thing I would like to do, Senator, in 
response to your first question, because somebody did slip me a 
little note, is say that we are complying with the Improper 
Payments Information Act and we do report. So DHS does report 
its improper payments.
    Senator Carper. Since when? Go ahead, whoever is behind 
you, because my staff just said that you were not. Can you give 
me some idea--when do you think you started complying?
    Mr. Borras. Last year.
    Senator Carper. Last year? Good. So for fiscal year 2010?
    Mr. Borras. Yes.
    Senator Carper. Well, that is good. So part of that $125 
billion was DHS. Well, that is a good start. Now we want to 
ratchet it down, and the other thing we want to do is recover 
as best we can some of those improper payments.
    Mr. Borras. Yes.
    Senator Carper. Thank you for that information. Go ahead 
and answer my second question, please.
    Mr. Borras. I do not know that I have necessarily found 
anything in management that surprised me. Maybe what has 
surprised me is the extent of some of the problems because I 
certainly had a good orientation coming in. I read all the GAO 
reports and the IG reports. I was very familiar with the 
management deficiencies.
    The Secretary prioritized for me getting off the High-Risk 
List for management integration, focusing on building a common 
architecture around the Department on how we manage this 
Department, to start to build an enterprise management 
function, and that is what we have done, Senator. Before your 
arrival, I showcased our comprehensive strategic plan, which we 
submitted to GAO back in January. GAO said it is the most 
comprehensive document on management that the Department has 
submitted. It is very specific with specific comprehensive 
action plan items with timelines on which we will be judged on 
our progress.
    The Secretary constantly talks about the need for One DHS. 
One DHS does not mean destroying the identity of the Customs 
and Border Protection or the Secret Service, but how do we 
unify the Department in ways that are meaningful and that 
contribute to the Department's health. For me, it is focusing 
on the acquisition process to make sure that we have standards 
on how we acquire goods and services in the Department, the way 
we manage our financial systems, the need for not only 
financial systems, which I have talked about and which are 
major deficiencies, but having common skill sets around the 
Department, and that talks to how we train our financial 
management community.
    And it is focusing on the way we treat our people, our 
human capital issues, and the way we are building new training 
in the Department. I mentioned earlier, Senator, that we have 
eliminated redundant Candidate Development Programs for SES, 
and now we only have one. We went from four to one.
    Again, these are very strategic, small but very important 
steps toward unifying the Department around a common training 
architecture, a common financial architecture, a common 
acquisition architecture, and a common human capital 
architecture.
    Senator Carper. Well, I applaud those efforts, and I 
applaud the Secretary, whom I am a big fan of, and I would just 
urge you to continue to do those things. One of our jobs is to 
do oversight and to make sure that the things that you all are 
attempting to do, you actually complete and you tell us what we 
can do to help.
    So thank you. Thank you for your service this last year. My 
hope is that you will be confirmed to serve not on an interim 
basis, but on a more permanent basis.
    Mr. Borras. Thank you, Senator.
    Senator Carper. Very nice to see you. Thank you.
    Chairman Lieberman. Well, thanks, Senator Carper.
    Thanks, Mr. Borras. I appreciate your testimony today. I 
think you have been really quite impressive. Your answers have 
been informed. I suppose, obviously, you have the benefit of 
having had a year on the job, but even allowing for that, 
nonetheless, you show a detailed involvement in the management 
of the Department, which I have found impressive, and I hope 
anybody who has any lingering doubts about your nomination will 
find reassuring.
    We are going to leave the record of this hearing open until 
noon tomorrow for any additional statements and questions. It 
is my intention to bring your nomination before our Committee 
at the markup scheduled for next week. I am hopeful, obviously, 
and confident that at the Committee level, we will confirm your 
nomination unanimously, and then we will go to the floor, and I 
hope we are successful there, as well.
    Thank you very much. I thank all the family and friends who 
are with you.
    With that, the hearing is adjourned.
    [Whereupon, at 11:34 a.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              






<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
